<html>
<title> - ROAD TO PARIS: EXAMINING THE PRESIDENT'S INTERNATIONAL CLIMATE AGENDA AND IMPLICATIONS FOR DOMESTIC ENVIRONMENTAL POLICY</title>
<body><pre>[Senate Hearing 114-119]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 114-119
 
 ROAD TO PARIS: EXAMINING THE PRESIDENT'S INTERNATIONAL CLIMATE AGENDA
           AND IMPLICATIONS FOR DOMESTIC ENVIRONMENTAL POLICY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 8, 2015

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
  



       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________
                               
                  U.S. GOVERNMENT PUBLISHING OFFICE
 97-557 PDF                WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                         
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              JULY 8, 2015
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Boxer, Hon. Barbara, U.S. Senator from the State of California...     3
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama, 
  prepared statement.............................................    94

                               WITNESSES

Hausker, Karl, Senior Fellow, World Resources Institute..........     6
    Prepared statement...........................................     8
    Responses to additional questions from Senator Booker........    37
Ladislaw, Sarah O., Director and Senior Fellow, Energy and 
  National Security Program, Center for Strategic and 
  International Studies..........................................    39
    Prepared statement...........................................    41
Holmstead, Jeffrey R., Partner, Bracewell and Giuliani...........    51
    Prepared statement...........................................    53
    Responses to additional questions from Senator Wicker........    64
Bookbinder, David, Partner, Element VI Consulting................    68
    Prepared statement...........................................    70
Rabkin, Jeremy A., Professor of Law, George Mason University 
  School of Law..................................................    74
    Prepared statement...........................................    76

                          ADDITIONAL MATERIAL

Congressional Record full text, Framework Convention on Climate 
  Change, Senate--October 7, 1992................................   113
Center for American Progress--The Authority for U.S. 
  Participation in the Paris Climate Agreement...................   129
Open Secrets, Lobbyist Profile Summaries for Jeffrey Holmstead, 
  2010-2015......................................................   173


 ROAD TO PARIS: EXAMINING THE PRESIDENT'S INTERNATIONAL CLIMATE AGENDA 
           AND IMPLICATIONS FOR DOMESTIC ENVIRONMENTAL POLICY

                              ----------                              


                        WEDNESDAY, JULY 8, 2015

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m. in 
room 406, Dirksen Senate Building, Hon. James M. Inhofe 
(chairman of the Committee) presiding.
    Present: Senators Inhofe, Boxer, Capito, Crapo, Boozman, 
Sessions, Wicker, Fischer, Rounds, Sullivan, Cardin, 
Whitehouse, Merkley, Gillibrand, Booker, and Markey.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Now that Senator Sessions and Senator 
Wicker are here, our meeting will start. Senator Cardin, it is 
good to have you here, and I see Senator Sullivan in there.
    Well, there has been a lot of coverage regarding the United 
Nations Twenty-First Annual Climate Conference at the end of 
the year. We have heard how the President has pledged the U.S. 
to reduce greenhouse gas emissions by 26 to 28 percent compared 
to the 2005 levels by 2025, and how he is going to lead other 
countries in openness, transparency and accountability.
    You know, we have been here before. I remember so well, 
Copenhagen, I think it was about 5 years ago in Copenhagen, 
they all went over there, Obama, Clinton, Pelosi, John Kerry, 
Al Gore and they assured everybody that we were going to pass 
legislation over here that was going to control the emissions 
and all these good things were going to happen.
    I went over as the one man truth squad, Barbara, to let 
them know that it wasn't going to happen and it didn't happen. 
So all of these statements sound good in a press release, but 
the slightest level of scrutiny reveals a significant lack of 
authenticity, substance and merit.
    While the President is lecturing the rest of the world on 
the importance of credibility and transparency, he is going out 
of his way to write the U.S. Senate and the American people out 
of the final agreement. That is why we are here today, to take 
a closer look at the President's international climate agenda 
and what it actually means for the United States.
    The President may have creative legal arguments to sign 
onto a legally non-binding international agreement but he does 
not have the backing of the U.S. Senate, which significantly 
limits such an agreement's domestic application. I carried that 
same message in 2009 when I attended the Copenhagen meeting, as 
I mentioned just now.
    The President's Intended Nationally Determined 
Contribution--that is a new one, that is INDC--is not only 
unrealistic, but it also does not add up. Let's show the chart 
up there, that is the white area that does not add up. I am 
sure that our witnesses will be addressing this.
    According to a recent analysis by the U.S. Chamber of the 
Presidents INDC, it is about 33 percent short of meeting stated 
targets. Mr. Bookbinder, who has done his own analysis, and I 
appreciate your being here, Mr. Bookbinder, I recall when you 
were our witness before. You were a witness for Senator Boxer, 
now you are one of our witnesses. He has done his own analysis 
and has found even a greater gap. I am looking forward to his 
thorough breakdown. Additional studies are forthcoming showing 
similar results.
    The Administration has yet to describe how the 26 to 28 
percent of greenhouse gas reductions would be achieved. In fact 
the Administration's own deputy director for climate policy 
remains unable and unwilling to answer this basic question.
    Further concerning is that a large portion of the INDC 
stated targets depend on the successful implementation of the 
President's so-called Clean Power Plan. This proposal not only 
faces significant obstacles at the State level, there are 32 
States now on record opposing it, but it would also increase 
the price of electricity, depress local economies and cost $479 
billion and ship American jobs overseas. It is also on legal 
treacherous ground especially in the wake of the two recent 
Supreme Court decisions, UARG v. EPA and Michigan v. EPA, which 
was just decided last week.
    The remaining portions of the INDC rely on an exaggerated 
stretch of current and future regulatory actions without 
consideration for inevitable legal challenges and delays, which 
I can assure you would take place. Even the very notion that 
the President's domestic and international climate agendas are 
about protecting the environment lack credibility. His EPA did 
not even bother to access the minuscule environmental benefits 
associated with the Clean Power Plan and its supposed core 
domestic climate policy. The international climate negotiators 
have already admitted that while they are not entirely clear on 
what actions will need to limit the temperature increases to 2 
degrees Celsius, they are sure that the Paris agreement will 
not be enough.
    The Paris agreement will be the 21st such agreement that is 
under the United Nations, and it is a pretty expensive one. 
They eat well and drink well but nothing ever happens. I thank 
the witnesses for being here and look forward to your 
testimony.
    Senator Boxer.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    There has been a lot of coverage regarding the UN's climate 
conference at the end of this year. We've heard how the 
President has pledged the U.S. to reduce greenhouse gas 
emissions by 26 to 28 percent compared to the 2005 level by 
2025 and how he is going to lead other countries in ``openness, 
transparency and accountability.''
    All of these statements sound good in a press release, but 
the slightest level of scrutiny reveals a significant lack in 
authenticity, substance and merit. And while the President is 
lecturing the rest of the world on the importance of 
credibility and transparency, he is going out of his way to 
write the U.S. Senate and the American people out of a final 
agreement. That is why we are here today--to take a closer look 
at the President's international climate agenda and what it 
actually means for the U.S.
    The President may have creative legal arguments to sign on 
to a ``legally nonbinding'' international agreement, but he 
does not have the backing of the U.S. Senate, which 
significantly limits such an agreement's domestic application. 
I carried that same message in 2009 when I attended the UN's 
COP-15 in Copenhagen, and it remains true.
    The President's Intended Nationally Determined Contribution 
(INDC) is not only unrealistic, but also does not add up. 
According to a recent analysis by the U.S. Chamber, the 
President's INDC is about 33 percent short of meeting the 
stated targets. Mr. Bookbinder, who has done his own analysis, 
has found an even greater gap, and I am looking forward to his 
thorough breakdown. Additional studies are forthcoming showing 
similar results.
    The Administration has yet to describe how the 26-28 
percent of greenhouse gas reductions would be achieved. In 
fact, the Administration's own Deputy Director for Climate 
Policy remains unable and unwilling to answer this basic 
question.
    Further concerning is that a large portion of the INDC 's 
stated targets depend upon the successful implementation of the 
President's so-called Clean Power Plan. This proposal not only 
faces significant obstacles at the State level--32 States 
oppose the $479 billion Federal takeover that would increase 
the price of electricity, depress local economies and ship 
American jobs overseas--but is also on legally treacherous 
ground especially in the wake of two recent Supreme Court 
decisions--UARG v. EPA and Michigan v. EPA decided just last 
week. The remaining portions of the INDC rely on an exaggerated 
stretch of current and future regulatory actions without 
consideration for inevitable legal challenges and delays.
    Even the very notion that the President's domestic and 
international climate agendas are about protecting the 
environment lack credibility. His EPA did not even bother to 
assess the minuscule environmental benefits associated with the 
Clean Power Plan--his supposed core domestic climate policy--
and the international climate negotiators have already admitted 
that while they aren't entirely clear on what actions will be 
needed to limit temperature increases to 2 degrees Celsius, 
they are sure that the Paris agreement will not be enough.
    I thank the witnesses for being here and look forward to 
their testimony.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thanks, Mr. Chairman.
    The impacts of dangerous climate change are all around us. 
Just ask the people living in Texas who have had to face 
extreme weather rainfall events, record flooding. Or 
Californians who have had to deal with the crippling drought or 
New Yorkers who have suffered through Superstorm Sandy. Or 
those in Hawaii who are having to choose between saving their 
beachfront condominiums or losing their beach and their coral 
reefs. I saw that with my own eyes.
    Fortunately, the Obama administration has taken serious 
steps to address this growing crisis by reducing dangerous 
carbon pollution. The U.S. has committed to cutting our carbon 
pollution by 26 percent to 28 percent from 2005 levels by 2025. 
I believe this is achievable, because the President's Climate 
Action Plan contains the tools that are necessary to get the 
job done, even without Congress.
    We have a decades-long record of success in our landmark 
environmental laws. We have withstood moves in this Committee 
and on the Senate floor to disassemble those landmark laws, 
such as the Clean Air Act.
    Now, my colleague was right: we failed to pass cap and 
trade. The highest level we got was 56 votes, we needed 60. The 
bottom line is we have the Clean Air Act. The opponents of 
doing anything under the Clean Air Act took the case to the 
Supreme Court. It took 8 years. The Supreme Court found very 
clearly that carbon pollution is covered under the Clean Air 
Act.
    So the Obama administration has taken significant steps 
under the Clean Air Act. They have included establishing new 
fuel economy and carbon standards for cars and heavy duty 
trucks which has been embraced by Detroit. We have seen a 
rebirth of the automobile industry. We see that the power plant 
sector, we are moving toward cleaning that up. We have fights 
on our hands, I predict we will win those fights. The U.S. has 
always been a leader. We don't sit back and let other countries 
lead the way. And we are.
    Climate change is a global problem. Two weeks ago, the G7 
agreed to work with all countries to reduce carbon emissions by 
up to 70 percent by 2050. Action by the Obama administration 
prompted China to make its first-ever commitment to reduce 
carbon pollution. Already coal use is down in China by 8 
percent just this year.
    The EU has pledged to reduce carbon pollution, and 
developing countries such as Mexico and South Korea have come 
forward with their first-ever commitments to control their 
carbon pollution. Already, countries covering over 60 percent 
of global carbon emissions have agreed to take action to cut 
carbon, and other countries will join the effort.
    There are huge benefits when we undertake cutting carbon. 
The recent study by the EPA shows us 57,000 fewer deaths per 
year from poor air quality, with economic benefits valued at 
$930 billion, 12,000 fewer deaths per year from extreme heat 
and temperature changes, $180 billion per year in avoided 
damages from water shortages, $3 billion per year avoided 
damages from poor water quality, $11 billion a year avoided 
losses in our ag sector, 40 to 59 percent fewer severe and 
extreme droughts and almost 8 million fewer acres burned each 
year from wildfires.
    This is something we have to do. And it breaks my heart 
that the party in control of this Committee doesn't believe in 
any of this and is trying to fight it. But the American people 
see it clearly. So this Congress is out of step with the 
American people.
    The economy today will be made stronger if we take these 
steps. We see as a result of the Obama Plan 470,000 additional 
green jobs compared to the status quo.
    In California, I think I can speak to this. We are on a 
path to cut our carbon pollution by 80 percent by 2050. That is 
required under our law at home. Very strongly supported by the 
California people. We had oil companies try to overturn it and 
the people said, sorry, we are sticking with it. During the 
first year and a half of my State's cap and trade program we 
added 491,000 jobs, a growth of 3.3 percent which outpaces 
national growth.
    I welcome the witnesses today. I feel stronger than ever 
the President is on the right path. This Committee is on the 
wrong path.
    [The prepared statement of Senator Boxer follows:]

                   Statement of Hon. Barbara Boxer, 
               U.S. Senator from the State of California

    The impacts of dangerous climate change are a daily reality 
that we simply cannot ignore. Just ask people living in Texas, 
who have had to face extreme weather rainfall events and record 
flooding, or Californians who have had to deal with a crippling 
drought, or New Yorkers who suffered through Superstorm Sandy.
    Fortunately, the Obama administration has taken serious 
steps to address this growing crisis by reducing dangerous 
carbon pollution. The U.S. has committed to cutting our carbon 
pollution by 26 percent to 28 percent from 2005 levels by 2025. 
This target level, known as an ``intended nationally determined 
contribution'' (INDC), is an achievable goal because the 
President's Climate Action Plan contains the tools necessary to 
get the job done. We have a decades-long record of success of 
our landmark environmental laws, such as the Clean Air Act 
which has been repeatedly upheld by the Supreme Court.
    The Obama administration has already taken significant 
steps toward reaching this target, including establishing new 
fuel economy and carbon standards for cars and heavy duty 
trucks, proposing to cut carbon pollution 30 percent from our 
power sector, and reducing carbon pollution from Federal 
operations by 40 percent in 2025.
    The U.S. has always been a leader among other nations, and 
we are leading the way to address dangerous climate change. We 
know that we must cut harmful air pollution to protect the 
health and welfare of the American people, and our resolve has 
brought other countries to the table to make their own domestic 
commitments to reduce carbon pollution.
    Climate change is a global problem, and we are seeing 
progress on the international level. Two weeks ago, the G7 
agreed to work with all countries to reduce carbon emissions by 
up to 70 percent by 2050.
    Action by the Obama administration prompted China to make 
its first-ever commitment to reduce carbon pollution--and 
already, coal use is down by 8 percent in China this year.
    The E.U. has also pledged to reduce carbon pollution 
significantly, and developing countries, such as Mexico and 
South Korea, have come forward with their first ever 
commitments to control their carbon pollution. Already, 
countries covering over 60 percent of global carbon emissions 
have agreed to take action to cut carbon pollution, and other 
countries will soon join this effort before heading to Paris 
later this year.
    Taking action globally to address the threat of climate 
change will not only help us avoid the worst impacts, but it 
will provide enormous health and economic benefits to the U.S. 
A recent peer-reviewed study by the EPA analyzes in detail the 
benefits of global action on climate change. According to this 
study, by the end of the century there will be:
     57,000 fewer deaths per year from poor air quality, with 
economic benefits valued at $930 billion;
     12,000 fewer deaths per year from extreme heat and 
temperature changes;
     $180 billion per year in avoided damages from water 
shortages;
     $3 billion per year avoided damages from poor water 
quality;
     $11 billion per year avoided losses in our agricultural 
sector;
     40-59 percent fewer severe and extreme droughts; and
     Almost 8 million fewer acres burned each year from 
wildfires.
    While taking action to reduce our carbon pollution avoids 
these significant impacts in the future, it is also good for 
our economy today. A recent report by the New Climate Institute 
found that the policies in the U.S. INDC will result in the 
creation of 470,000 additional green jobs, compared to the 
status quo.
    We have seen this type of success in my home State of 
California. California is on a path to cut its carbon pollution 
by 80 percent by 2050, as required under our greenhouse gas 
emissions law, A.B. 32. During the first year and half of my 
State's cap and trade program, California added 491,000 jobs--a 
growth of almost 3.3 percent, which outpaces the national 
growth rate of 2.5 percent.
    I welcome the witnesses today and look forward to a 
discussion on how the Obama administration's actions to reduce 
dangerous carbon pollution are leading the world to address the 
climate crisis.

    Senator Inhofe. Thank you, Senator Boxer.
    We do have a very distinguished panel of Karl Hausker, 
Senior Fellow at the World Resource Institute; Sarah Ladislaw, 
Director and Senior Fellow, Energy and National Security 
Program, Center for Strategic and International Studies; 
Jeffrey Holmstead, Partner, Bracewell and Giuliani; David 
Bookbinder, and I am real pleased, David Bookbinder was here 
before but he is here as a majority witness today. He has 
testified here before. And Jeremy Rabkin, Professor of Law, 
George Mason University School of Law.
    We will start with you. Your entire statement will be part 
of the record, try to keep your remarks to right around 5 
minutes. Mr. Hausker.

   STATEMENT OF KARL HAUSKER, SENIOR FELLOW, WORLD RESOURCES 
                           INSTITUTE

    Mr. Hausker. Thank you, Mr. Chairman. Good morning.
    My name is Karl Hausker, and I am a Senior Fellow at the 
World Resources Institute. WRI is a nonprofit, nonpartisan 
environmental think tank that goes beyond research to provide 
practical solutions to the world's most urgent environmental 
and developmental challenges. Thank you for the opportunity to 
serve on this panel.
    The main message in both my oral and written testimony is 
this: the U.S. can meet the Administration's 2025 emissions 
reduction target while maintaining economic growth and 
employment.
    My testimony has four key themes. First, a growing body of 
evidence shows that economic growth can go hand in hand with 
efforts to reduce emissions and greenhouse gases. Recent 
experience at the national and State levels demonstrates that 
we can achieve both. What Senator Boxer referred to in 
California is a perfect example of that.
    However, the policies often necessary to unlock these 
essential economic win-win opportunities have market barriers 
and hamper investment on what are otherwise beneficial 
activities. So good policies can unlock the win-win 
opportunities for the economy and the environment.
    So we can achieve a prosperous low carbon future by 
harnessing key drivers of economic growth including more 
efficient use of energy and natural resources, smart 
infrastructure investments and technological innovation. These 
low-carbon solutions often create net economic benefits. For 
instance, we know that increased efficiency pays off.
    Let me give three examples. With strengthened CAFE and GHG 
standards, drivers will save on average a net of $3,400 to 
$5,000 over the life of light duty vehicles made in 2025 
compared to those made in 2016.
    Another example: Federal appliance efficiency standards put 
in place over the past 25 years have resulted in $370 billion 
in cumulative utility bill savings. Finally, States with energy 
efficiency targets and programs in place are generally saving 
customers $2 for every $1 invested.
    Let me turn to my second theme. The U.S. emissions 
reduction target announced in March is ambitious, but it is 
achievable. We can meet this target using existing Federal laws 
combined with actions by the States. Well designed policies can 
accelerate recent market and technology trends in renewable 
energy, energy efficiency, alternative vehicles and in other 
areas, combining to reduce emissions 26 to 28 percent below 
2005 levels.
    WRI's recent report delivering on the U.S. climate 
commitment shows several pathways to get there. However, U.S. 
and global efforts to combat climate change can't stop in 2025. 
Deeper reductions will be needed in the decades ahead to avoid 
the worst impacts of climate change.
    Therefore, it is incumbent on this Congress to play a 
constructive role in efforts to reduce emissions in the years 
ahead. This can and should be done in a cost effective manner 
such as by establishing an economy-wide price on carbon.
    Third, we can achieve the U.S. 2025 target while generating 
multiple co-benefits and maintaining economic growth. The 
proposed Clean Power Plan, a key policy for meeting the target, 
will result in reduced exposure to particulates and to ozone 
pollution. EPA estimates these air pollution co-benefits alone 
are worth $25 billion to $62 billion per year.
    And the economy is projected to keep on growing. The Energy 
Information Administration projects the macroeconomic impacts 
of the proposed Clean Power Plan will be very small, 
approximately a tenth of a percentage point decrease in GDP in 
2030. This in the context of economy projected to grow from $17 
trillion to $24 trillion in 2030. Similarly, the EIA is 
projected net employment impacts are essentially zero.
    Fourth, U.S. leadership is essential to the global efforts 
to limit warming to 2 degrees Celsius above pre-industrial 
levels. Failure to meet that goal will increase economic, 
social and environmental risks for the United States and for 
all nations. We can't simply ask, how much does it cost to 
avoid climate change. We must also ask, what does it cost our 
country if we don't avoid climate change? If nations fail to 
combat climate change, the U.S. will suffer billions of dollars 
in damage to agriculture, forestry, fisheries, coastal inland 
flooding damages, along with heat-driven increases in 
electricity bills, among multiple other impacts.
    So our country has a choice. It can show international 
leadership and bring the same spirit of competition, ingenuity 
and innovation to the climate challenge that it has brought to 
other problems. Or we can be left behind as other countries 
develop the solutions, capture the markets for the fuels, 
technologies and processes that reduce greenhouse gas 
emissions.
    In closing, the target is ambitious and achievable, fully 
compatible with economic growth and employment. Thanks, and I 
look forward to your questions.
    [The prepared statement of Mr. Hausker follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
 
    Senator Inhofe. Thank you, Mr. Hausker. Ms. Ladislaw.

  STATEMENT OF SARAH O. LADISLAW, DIRECTOR AND SENIOR FELLOW, 
ENERGY AND NATIONAL SECURITY PROGRAM, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Ms. Ladislaw. Good morning, members of the Committee. Thank 
you very much for the opportunity to testify today.
    My name is Sarah Ladislaw, and I direct the Energy and 
National Security Program at the Center for Strategic and 
International Studies. CSIS is a bipartisan, nonprofit 
organization in Washington, DC. My remarks today represent my 
own personal views and not those of CSIS as an institution.
    The Obama administration came into office in 2009 with a 
goal to reestablish the United States as leader in the fight 
against global climate change. Climate leadership under the 
Obama administration has two primary goals. One, lead by 
example through domestic action; and two, create a durable 
international framework that is able to mobilize and coordinate 
global efforts. These two goals are interdependent, because no 
single country acting alone can effectively deal with the 
challenges of global climate change and because the global 
community will not mobilize without leadership from major 
economies.
    I plan to make three points about the Obama 
administration's actions to address climate change in the 
context of these ongoing international negotiations. One, U.S. 
actions are in line with the actions of other major economies. 
Two, ambition plays a key role in the negotiations, and it is 
important to understand that. Three, more action will be 
necessary to meet global targets.
    First, some people have criticized the Obama administration 
for pursuing emissions reduction policies. They argue that 
other countries are not taking similar measures and that acting 
alone will hurt U.S. economic competitiveness. In reality, 
climate change policies and regulations are spreading around 
the world.
    According to the U.N. Intergovernmental Panel's Fifth 
Assessment report, as of 2012, two-thirds of global greenhouse 
gas emissions are covered by some sort of national policy or 
strategy compared to 45 percent in 2007.
    As of yesterday, 18 formal pledges, covering 46 countries, 
well over 55 percent of global emissions, were submitted in 
advance of the climate negotiations in Paris and more 
submissions are expected by October. In this regard the United 
States is acting in line with and not contrary to the global 
trend with regard to mitigation activity.
    The question of whether the actions taken by the United 
States are comparable to the efforts of other countries is 
inherently difficult to assess. Take for example two of the 
major parties in the negotiations, China and the United States, 
two of the world's largest emitters with different economies, 
different political structures and different approaches to 
climate change.
    The U.S. commitment to reduce emissions from 2005 levels is 
arguably more stringent than the Chinese goal to peak 
emissions. But the Chinese target to increase fossil fuel 
resources in the energy mix is arguably more ambitious than the 
corresponding U.S. goal. Exact comparability is difficult to 
assess, but both countries' cumulative targets represent an 
increase in ambition from the business as usual future.
    Second, several analyses have suggested that the United 
States will be unable to meet its 2025 emission reduction 
target under the actions announced thus far. While this point 
has been used to criticize the Administration's goal, it is not 
clear that having a stretched target is negative in the context 
of international negotiations.
    All countries want to see that other countries are working 
hard to meet their emission reduction pledges. It signals a 
level of ambition that entices participation from certain 
countries as well as more ambitious action from others. For 
example, the idea that the United States and China are 
committed to emissions controls despite having a potentially 
hard time meeting those targets, whether that is true or not, 
can catalyze additional action by other countries.
    Third, according to the International Energy Agency 
analysis, current pledges would be consistent with an average 
temperature increase of 2.6 degree Celsius by 2100 and 3.5 
degree Celsius by 2200. Clearly, additional action will be 
required if the standing global target is to be achieved.
    This begs the question, if the negotiations fail to yield 
emission reduction pledges on the order of the 2 degree target, 
how can they possibly be considered a success? As the IEA 
states in their report, the Paris outcome will be successful if 
it is viewed as the foundation upon which to build a future 
action.
    According to the IEA, the new international negotiating 
process will be less about big deliverables and big agreements 
but instead about creating a virtuous cycle of strengthening 
mitigation ambition over time. From a U.S. domestic standpoint, 
if the goals of this negotiation are achieved, the United 
States and other major emitters will eventually have to take 
additional domestic action to reduce emission further.
    The Obama administration has sought to take a leadership 
role in the realm of international climate action. The 
Administration's agenda has grounded in domestic action with an 
eye toward building long-term sustainable strategy for 
achieving deep emission reductions and preparing the United 
States and other countries to cope with the impacts of a change 
in climate.
    The key question for this Congress, the next Administration 
and Congress as well as the partners at the State and local 
level in industry and in civil society is how to ensure that 
the policies being put into place today are the ones that most 
effectively address the challenge of global climate change and 
serve the long-term interest of the Country in light of this 
ongoing challenge.
    Thank you.
    [The prepared statement of Ms. Ladislaw follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
     
    
    
    Senator Inhofe. Thank you Ms. Ladislaw. Mr. Holmstead.

   STATEMENT OF JEFFREY R. HOLMSTEAD, PARTNER, BRACEWELL AND 
                            GIULIANI

    Mr. Holmstead. Thanks to all of you for inviting me to 
participate this morning. My name is Jeff Holmstead. I am 
currently a partner at the law firm of Bracewell and Giuliani. 
But I spent much of my career in the Federal Government, in the 
White House during the deliberations over the 1990 amendments 
to the Clean Air Act and then as the Head of the EPA Air Office 
from 2001 to 2005.
    I kind of feel like we are talking about different issues 
up here today. And I guess I have just a different view of what 
it means to make a commitment in the international community. I 
guess I am puzzled by the assertion that the President shows 
leadership by making promises that he has no way of keeping.
    Last November, the Administration announced it had reached 
this landmark deal with China. They made a very specific 
commitment, 26 to 28 percent reduction. Then in March, the 
Administration made the same commitment to the rest of the 
international community in its official statement for the Paris 
Climate Change Conference. The Administration has said 
repeatedly that it will meet this commitment by taking actions 
under current law and that no action from Congress is needed.
    As you may remember, when the Administration announced this 
agreement with China, senior officials took to the airwaves to 
tout it. Mostly, they talked about what a great achievement it 
was that they had persuaded China to agree to increase its 
emissions only for the next 15 years.
    But they also explained how they had come with their very 
specific 26 to 28 percent pledge. EPA Administrator Gina 
McCarthy stated that ``the entire target was based on a 
thorough interagency review of the available tools in each of 
the agencies. The ones that are outlined in the Climate Action 
Plan, but also other tools and initiatives that could be teed 
up and brought to fruition very quickly.''
    White House senior advisor John Podesta wrote on the 
official White House blog that the 26 to 28 percent numbers 
were ``grounded in an intensive analysis of what actions can be 
taken under existing law.''
    Given these very specific targets, I assumed that there was 
a document that tallied up the emissions reductions that would 
be achieved by all the things that had been identified by this 
thorough interagency process and this intensive analysis. But 
many people, including a researcher from the Congressional 
Research Service, have asked the Administration for such a 
document or for any other evidence that this extensive analysis 
ever took place.
    But the Administration has never provided anything like 
this. In fact they won't even say whether such a document 
exists. As you heard from others, a number of people have 
looked at this and said all the things they are talking about 
are not nearly enough to meet the 26 percent reduction that the 
Administration has promised to achieve.
    Now, it is possible that the Administration does have a 
plan that includes additional actions they have not yet 
announced. Perhaps the agricultural sector, given it is the 
section with the largest emissions that have not yet been 
regulated. But it now seems more likely that the Administration 
simply does not have a plan for achieving even a 26 percent 
reduction by 2025.
    In my view, this is troubling. When the President or the 
State Department makes a commitment on behalf of the United 
States, this is not something that should be taken lightly. I 
think most Americans would be concerned to learn that the 
President has made a commitment to the international community 
that he does not intend to meet.
    Various officials in the Administration have said that 
climate change is a legacy issue for the President. Under our 
constitutional system, when a President wants this type of 
legacy he and his Administration normally work for legislation 
to accomplish it. But this Administration has never done this 
type of work. To be sure, the President has called on Congress 
to pass climate change legislation. But the Administration has 
never made a serious effort to engage Congress or stakeholders 
on the difficult issues involved.
    It is useful to contrast the Obama administration's 
approach to climate change legislation to the approach taken by 
the first Bush administration when President George H.W. Bush 
called for a fundamental overhaul of the Clean Air Act. That 
approach led to the 1990 amendments, the last major 
environmental statute to be passed by Congress.
    President Bush did not just call on Congress to pass 
legislation. His Administration developed a detailed 
legislative proposal and submitted it to Congress. Then, while 
the relevant congressional committees were working on the 
legislation, the Bush administration did not just stand back 
and hope for the best. At least five senior White House 
officials were involved in the legislative effort on almost a 
daily basis for more than a year, meeting with Members of 
Congress and congressional staffers and with industry and 
environmental groups and often hammering out specific 
compromises.
    Even though the Obama administration has said it views 
climate change as a legacy issue, it is has never done any of 
these things.
    I do not pretend that the 1990 amendments represent an 
ideal piece of legislation. There is much to criticize about 
those amendments. But the process that led to the amendments 
was instructive. It shows what an Administration can do even 
when Congress is controlled by the opposing party to get 
legislation through Congress when such legislation is actually 
a priority for the President.
    In my view, it is a shame that the Obama administration has 
not made this type of effort when it comes to climate change 
and has instead pursued an ill-advised regulatory approach that 
simply will not meet the commitment that they have made to the 
international community.
    Thank you.
    [The prepared statement of Mr. Holmstead follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
   
    Senator Inhofe. Thank you, Mr. Holmstead.
    Mr. Bookbinder. Welcome back.

 STATEMENT OF DAVID BOOKBINDER, PARTNER, ELEMENT VI CONSULTING

    Mr. Bookbinder. Thank you. Good morning, Mr. Chairman, 
Ranking Member Boxer.
    Thank you for the opportunity to discuss the United States 
commitment to the Paris climate process. My name is David 
Bookbinder. I am a Partner in Element VI Consulting and adjunct 
fellow at the Niskanen Center here in Washington.
    Chairman Inhofe, you mentioned that I have testified here 
previously as a witness, asked by Senator Boxer. I think it is 
a bit of sad commentary that we have to point out that someone 
can be a witness for both a Republican Chairman and a 
Democratic Chairman. I think that is a sad that this is seen as 
something extraordinary.
    In order to make sure that I had the right format for my 
testimony, I actually looked at the testimony that I gave back 
in 2007. The first sentence in that testimony bears repeating 
today. It was, ``Let me begin acknowledging that climate 
change, a problem that affects every aspect of our environment 
and whose solution will affect every aspect of our economy, is 
best addressed by tailor-made legislation.'' Seven years later, 
those words are even more true.
    First, as predicted, we have seen enormous amounts of 
Federal and State regulation and subsidies dealing with the 
climate issue. That is a second best solution. Everyone, 
everyone agrees that regulation and subsidies are not the 
optimal way to deal with climate change.
    Second, 7 years later, the effects of climate change are 
all the more apparent. The science is, if anything even more 
certain, and the effects are growing and are becoming worse 
every day. Action is something we need to take.
    So custom made Federal climate legislation, preferably in 
the form of a carbon tax would be the most useful thing 
Congress can do in order to make an effective international 
agreement possible. That international agreement is the only 
way we are going to deal with climate change.
    And now that I have lectured you as to your 
responsibilities, I am going to talk about what the 
Administration has proposed, which is the Paris commitment.
    What is the fuss? This is arithmetic, it is nothing but 
arithmetic. The INDC submission lists a series of regulatory 
measures and says we can get 26 percent from below 2005 by 
2025. All I did was take a look at each of those measures, take 
the maximum amount of emissions reductions from each of those 
measures as described either by EPA or by the Department of 
Energy or to the best of my ability and my partners' ability.
    By the way, speaking of bipartisanship, I was the former 
Chief Climate Counsel of Sierra Club. My partner was the former 
Director of Climate Policy at ExxonMobil. And we have yet to 
have a policy disagreement.
    So we went down this list of measures and we looked at the 
numbers. We added them up and we did the exact same thing that 
Karl Hausker did at WRI, that I understand the Chamber did, 
that other groups have done. We all came up with the same 
result. We all say that these listed measures get us between 
68, 70, 75 percent of what we need, depending on how you treat 
those numbers. The fact that all that all these different 
analyses come up with the same range tells you that you should 
have some confidence in that.
    I want to emphasize that this should come as no surprise to 
you and what is more, this is no surprise to anybody. We are 
not the only ones who can do the numbers. I promise you the 
rest of the world can look at the same regulatory measures and 
can do the numbers just as well as we can. The Chinese, the EU, 
the Indians, the developing countries, they all have very 
sophisticated people who understand U.S. regulatory measures. 
They are all going to come up with the same answer.
    No one has disagreed with these analysis. If I have left 
out any regulatory measures or my numbers are wrong, I would 
deeply appreciate somebody pointing that out to me, and I would 
be delighted to go back and work through them and see if we can 
get to a more accurate figure. So far no one has done that. But 
I welcome, I welcome anyone coming forward and saying, no, you 
are wrong about X, Y or Z, in which case I would absolutely, 
after discussing it with them, come up with a better number.
    And that is all I have to say right now.
    [The prepared statement of Mr. Bookbinder follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
          
    Senator Inhofe. Thank you, Mr. Bookbinder. Professor 
Rabkin.

 STATEMENT OF JEREMY A. RABKIN, PROFESSOR OF LAW, GEORGE MASON 
                    UNIVERSITY SCHOOL OF LAW

    Mr. Rabkin. I am Jeremy Rabkin. I teach at the George Mason 
Law School.
    I should start by saying I am not an expert on climate 
science. I am not even a specialist in environmental law. I 
have written about international law and foreign relations law. 
The issue that I want to put in focus here is, can we undertake 
a response to the climate challenge through the President 
acting on his own.
    A lot of people who are advocating for this say, oh, yes, 
we do this all the time. The President signs agreements on his 
own, it is true. But they are very specialized, very limited in 
their effect, or else they have been authorized by Congress. If 
this were a normal thing to do, you have to ask yourself, why 
didn't President Clinton think of this? Because President 
Clinton negotiated the Kyoto protocol, saw that he didn't have 
the votes in the Senate. He didn't say, never mind, I don't 
need the Senate, I will just do it because I am President and 
that is what matters.
    Let us remind ourselves that Vice President Gore was right 
there, he was actually the one who went to Kyoto. Gore was very 
committed to this. He didn't say, no record of him even in 
private telling President Clinton, you can do this on your own, 
don't worry about it.
    Now we have the successor protocol which seems to be 
basically the same thing but with more ambitious goals and we 
are told, last time we needed the Senate, we don't need the 
Senate, we don't need anyone, the President can do this on his 
own. That is a pretty astonishing thing and I think the Senate 
needs to look hard at that and ask itself, going forward, does 
it really want to let the President make these kinds of 
commitments.
    So I briefly want to discuss two follow-on issues that 
arise. It is said, well, it is OK for the President to do this, 
because he has all kinds of domestic legislation which he can 
rely on. I think the answer to that is maybe or maybe not. We 
will see. But I think it is pretty likely going forward that 
the EPA and others will say, this domestic legislation has to 
be interpreted in the light of commitments that the President 
has made to foreign governments. That is also disturbing 
because what it means is, when you enact legislation, that is 
just the starting point. The President then gets to bargain 
with foreign governments about what that legislation is 
supposed to mean. I think that is very disturbing.
    The final thing I want to talk about is what it means to 
have a political commitment. We are told it is not a treaty, it 
is not even really an agreement. Much of it would be a 
political commitment meaning the President has promised.
    Why does that bind the United States? I think there are two 
possibilities. Either it is just talk and so it is meaningless, 
or actually the President thinks and other people think we are 
kind of on the line because we have made this promise. It is 
true and it is fair enough to remind ourselves that Presidents 
in the past have made political commitments. President Nixon 
went to China, and his first visit there in 1972 he issued with 
Chairman Mao the Shanghai Communique saying, going forward, we 
promise each other our relations are going to be governed by 
these principles. There are a number of examples of political 
commitments like that.
    I believe without exception they dealt with diplomatic 
relations, things we would do out in the world. They were very 
vague and there was no kind of implementation machinery. What 
we are doing here is something that doesn't fit that pattern at 
all. What we are doing here is exactly what we did previously 
by treaty. We are saying let's have a very elaborate 
international agreement which is a very precise commitment 
about how much we will do in how many years. We will have 
implementing machinery. We will have regular conferences.
    It is all the aspects of a treaty, not just a political 
statement, not just a political framework. All the aspects of a 
treaty except for the Senate.
    If you think that, yes, the President can make that kind of 
political commitment and then the Congress is obliged to follow 
through, I have two questions for you. First, the President has 
been saying for years he wants to do something about 
immigration reform. Why can't he make a political commitment to 
the President of Mexico saying, we are going to change American 
immigration law in the following ways? I will draw on existing 
legislation to the extent that I think I can. And then the 
Congress has to follow through and do the rest because I have 
committed the United States. How do you feel about that? I 
don't see that it is different.
    Or another example, Canada has much stricter gun control 
than we do. What if the President makes a political commitment 
to the Prime Minister of Canada, we both agree that there have 
to be tighter gun controls on both sides of the border, 
especially our side in America. So I am going to use existing 
authority to the extent I think I can and beyond that, Congress 
is obligated because I promised.
    It is really worth asking yourselves, how that is 
different. I don't see how that is different. So I think going 
forward if the Senate shrugs its shoulders and says the 
President can commit us on this very complicated, costly, 
elaborate, ambitious climate agreement, maybe he can do it on 
many, many other things and is that really the way you want to 
be governed.
    Thank you.
    [The prepared statement of Mr. Rabkin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
    
    Senator Inhofe. Thank you very much, Mr. Rabkin. Those are 
some new thoughts we haven't heard before.
    We are going to have 5-minute rounds. We are going to ask 
our colleagues to adhere to the clock here because we have an 
excellent turnout and we want to get to everyone here. So let 
us start with you, Mr. Bookbinder.
    While I do not agree with some of the conclusions you have, 
I do agree that you have put together a study--put that chart 
back up, will you, that 30 percent chart--that shows the way we 
are trying to do this now doesn't seem to work. Now, you are on 
the same side as the White House in terms of your philosophy on 
global warming and all this. I am sure you have talked to them 
about this chart, about the gap that is there, this 
approximately a 30 percent gap which I think everyone agrees is 
there.
    Were you not able to get information that you needed?
    Mr. Bookbinder. Chairman Inhofe, I have not talked to the 
White House about this. I have made public statements on blog 
posts, I have responded to e-mail inquiries, I have talked on 
the phone to people. I have had no communication with the 
Administration or any officials concerning this analysis.
    Senator Inhofe. Let me ask you, then. Why would the 
President come out with INDC that doesn't work mathematically?
    Mr. Bookbinder. I think you would have to ask the President 
or Secretary Kerry.
    Senator Inhofe. Mr. Holmstead, on this same chart giving 
the 30 percent gap, what concerns me, and it concerns a lot of 
people from my State which is a rural State, which is an 
agricultural State. Where would you go to make up, what are the 
possibilities of where you would go to make up the gap?
    Mr. Holmstead. Well, if you look at the major sectors that 
emit greenhouse gases, most of them are now regulated or soon 
will be under various regulatory programs that the 
Administration has either adopted or promised to adopt.
    The biggest remaining sector that is not regulated is the 
agricultural sector. And they have a voluntary program. There 
is a history that sometimes voluntary programs become 
regulatory programs. And so if they are serious about filling 
in that 30 percent gap, you might anticipate that they would do 
such things as mandating changes in the way that conservation 
tillage is done, restricting nitrogen fertilizer, mandating 
different treatment of manure waste and other such things.
    Senator Inhofe. Crop insurance to emissions or something 
like that?
    Mr. Holmstead. Who knows? But if you are looking for where 
you might get those emission reductions, I think that is really 
where you would have to start.
    Senator Inhofe. I appreciate that, because I look at this, 
we have studied in our Committee to see where would you go, 
were that to be desired. My farmers and ranchers in Oklahoma 
understand this. They understand that the greatest problem they 
are facing is nothing that we normally face in the Ag Bill but 
it is overregulation by the EPA. And they are afraid of that.
    Professor Rabkin, if the President signs a unilateral 
political agreement, let's say he figured a way to do that in 
Paris. And I know something about this, I mentioned the 
Copenhagen agreement, when I went over. Those 191 countries 
assumed since they had the Vice President, they had the whole 
group that I mentioned to you over there assuring them, 
including Obama, that once those people agreed, it doesn't take 
legislation. They probably still assume that today.
    Now, if they were to figure out a way to do this without 
coming for ratification to Congress, and I might remind 
everyone here, I know you are aware of this, but it is worth 
bringing up again, the Clinton-Gore Administration never did 
bring this for ratification to Congress. Because they knew it 
would not be ratified.
    Now, if they are able to do something without ratification, 
without Congress's input, wouldn't the next Administration be 
in the same position to undo anything that was done?
    Mr. Rabkin. The next Administration could certainly say 
they made a political commitment, we repudiate it. That was 
their commitment, you shouldn't have trusted them. Of course, 
that is an awkward thing to do because it does undermine the 
credibility of American Presidents. So I think it is lamentable 
that President Obama is putting his successor in that position, 
either repudiate my extra-Constitutional commitment or else 
undermine American credibility.
    But of course they will be tempted to say, maybe they will 
be under a lot of pressure to say, I as Obama's successor 
cannot be committed by his unilateral posturing.
    Senator Inhofe. Very good. Senator Boxer.
    Senator Boxer. Thanks.
    Mr. Rabkin, are you aware that 94 percent of our treaties 
are executive, done by the executive? Are you aware of that?
    Mr. Rabkin. I am very aware of that.
    Senator Boxer. Good. Because you didn't seem to, you were 
so outraged. Now, are you aware that in 1992, Congress ratified 
the United Nations Framework Convention on Climate Change? 
Totally bipartisan. Are you aware of that?
    Mr. Rabkin. Very aware of that.
    Senator Boxer. Are you aware that these negotiations are 
based on that ratified treaty?
    Mr. Rabkin. Yes.
    Senator Boxer. So whoa, whoa, whoa. Then, your comments, 
sir, just make no sense at all. You speak as if this is a rogue 
President.
    Now the fact of the matter is not only do we have that 
vote, but we also have the Clean Air Act. Do you know how many 
times the Supreme Court has upheld that Clean Air Act? And how 
many decisions there have been that said greenhouse gas 
emissions are covered? Do you know how many cases there have 
been?
    Mr. Rabkin. About greenhouse gas emissions? Probably single 
digits.
    Senator Boxer. There are three, that is right, and the 
Supreme Court has spoken. So the fact is the Clean Air Act 
governs here, you have the treaty that governs here, you have a 
President who is carrying out the Clean Air Act. And frankly, 
sir, if he didn't he would be hauled into court.
    So I just have to say that your outrage doesn't match the 
law.
    Mr. Rabkin. OK, so we agree on certain facts. That is what 
the initial colloquy was, do you know this, do you know this, 
yes, I know it, I know it, I know it. Now let me explain to you 
why I wouldn't say I am outraged, but I am very concerned and 
let me explain to you why.
    Senator Boxer. But, sir, you already did in your----
    Mr. Rabkin. Oh, no, no, no you are raising challenges and 
you have to let me answer.
    Senator Boxer. I have the time if Senator Inhofe wants to 
give you more time. Your entire presentation was bashing this 
Administration without mentioning once that the Supreme Court 
upheld this law and that we have a convention that was ratified 
by Congress. So I am going to move on because I only have 3 
minutes left. Mr. Bookbinder, I want to talk to you about 
something.
    Senator Wicker. Mr. Chairman, I suggest that we extend 
Senator Boxer's time, so that the gentleman could answer the 
question and she could still have the remaining 2 minutes and 
32 seconds to ask what she wants.
    Senator Inhofe. A good suggestion, Senator Wicker from 
Mississippi, that is exactly what we are going to do. Because 
he wants to respond and we are going to give him time, if 
necessary my time on a second round. Go ahead, Senator Boxer.
    Senator Boxer. OK, can I go back to 2:32 because I was 
interrupted?
    Senator Inhofe. Sure.
    Senator Boxer. Thank you.
    Mr. Bookbinder, you have come a long way in my direction 
since the last time I saw you. You are calling for a carbon 
tax. And that is where I am at. I think it is the simplest way 
and it is a way to put a price on carbon that is fair.
    And you point out that your partner, his background is with 
Exxon and I was going to ask you about that. You say you have 
never had a disagreement with him? Does he agree with you that 
a carbon tax is the right way to proceed here?
    Mr. Bookbinder. Yes, he does.
    Senator Boxer. Well, that is really newsworthy. Let's get 
that in the record, that ExxonMobil believes we should fight 
climate change with a carbon tax.
    Mr. Bookbinder. Excuse me, Senator Boxer.
    Senator Boxer. A former employee of Exxon.
    Mr. Bookbinder. Yes. Please do not----
    Senator Boxer. I am sorry. You are right. A former employee 
who spent how many years with Exxon?
    Mr. Bookbinder. Decades.
    Senator Boxer. Decades with Exxon. This is progress, folks, 
and I hope that would be the news coming out of here.
    Now, Mr. Bookbinder, I also reread your testimony and I 
appreciate the fact that you are not backing off from what you 
said. So I am just going to read certain things.
    You said severe heat waves are projected to intensify in 
magnitude and duration over the portions of the U.S. where 
these events are already occur, with likely increases in 
mortality and morbidity, especially among the elderly, young 
and frail. Do you still believe that?
    Mr. Bookbinder. I assume you are reading from my previous 
testimony?
    Senator Boxer. Correct.
    Mr. Bookbinder. Yes, I still believe those things.
    Senator Boxer. OK. Do you also agree now that climate 
change is also expected to facilitate the spread of invasive 
species and disrupt ecosystems?
    Mr. Bookbinder. Yes, I do.
    Senator Boxer. Do you also agree that climate change is 
expected to lead to increases in ozone pollution, with 
associated risks in respiratory infection and aggravation of 
asthma?
    Mr. Bookbinder. Yes, I do.
    Senator Boxer. Now, what you say in this in the very 
beginning is worth repeating. You point out that the best way 
to approach fighting climate change is through specific 
legislation. I couldn't agree with you more. I agree that the 
carbon tax, cap and trade, the things I have been fighting for.
    But you said in the absence of such legislation the Clean 
Air Act will still enable us to get the job done. Do you still 
agree with that?
    Mr. Bookbinder. It depends really on what you mean by the 
job.
    Senator Boxer. They are your words, not mine.
    Mr. Bookbinder. I understand that. Senator, aside from that 
first paragraph that I cribbed, I haven't looked at that 
testimony since I gave it.
    The Clean Air Act will reduce carbon dioxide emissions, 
there is no doubt about it. That is why I advocated 
successfully to bring the Massachusetts case. It is simply not 
as efficient a means.
    Senator Boxer. I agree.
    Mr. Hausker, does your analysis indicate that the U.S. 
target of reducing carbon pollution in the range of 26 to 28 
percent by 2025 is achievable?
    Mr. Hausker. Yes, I want to emphasize very strongly that it 
is achievable and I want to say I disagree strongly with Mr. 
Bookbinder's characterization of the WRI report as consistent 
with what he did in showing that there is a gap or that there 
are missing tons. I am happy to expand on that if you like.
    Senator Boxer. My time has run out. I so appreciate the 
time, Mr. Chairman.
    Senator Inhofe. Yes. Now, I am going to take the Chair's 
prerogative and give Mr. Rabkin a chance to respond as he was 
so anxiously trying to do a just a moment ago.
    Mr. Rabkin. Thank you.
    So on the first point, 94 percent of our agreements are 
executive agreements, that is true. But almost all of them are 
either authorized by Congress like the trade agreements.
    Senator Boxer. So is this one.
    Mr. Rabkin. No, this----
    Senator Boxer. Yes, in 1992.
    Mr. Rabkin. So you want to say the Framework Convention on 
climate change authorized the President to do anything that he 
wanted later on. And my simple answer to that is, if that is 
true why didn't anyone tell President Clinton? Why didn't 
President Clinton say, oh, Kyoto doesn't have to be a treaty, I 
was authorized by the 1992 Framework Convention. Al Gore, so 
enthused about the subject, why didn't he say, Mr. President, 
you don't need a treaty, don't bother with the Senate, you can 
do this inherently. So that seems to mean not at all 
convincing.
    And I do want to go back and say apart from things that are 
implementing treaties, there are a number of executive 
agreements which are implementing treaties. Almost all of them 
are extremely narrow and technical, which is not what this is. 
This is a very big, ambitious thing.
    The last point that you raised, which I think you were most 
substantive, don't we have the Clean Air Act and hasn't the 
Supreme Court said that is relevant to it? Yes, we do and yes, 
they have said it. It matters a lot when you get down to it. 
What is it that we think we are achieving in regard to climate 
change?
    It is one thing to say we actually have a treaty which 
Congress has considered in some form. Maybe not two-thirds of 
the Senate but some congressional participation. That is one 
thing.
    It is another thing to say, oh, you know, the President has 
made a deal so that Clean Air Act now needs to read this. And 
on particular issues there could be billions of dollars at 
stake. You are really making the Clean Air Act into a kind of 
blank check for the President and whatever people he happens to 
make agreements with. I think that is a real problem.
    Just a last thing. We have this case, Michigan v. EPA. And 
it is about mercury and there is actually an international 
convention on mercury. Some amicus brief said, hey, what about 
the international convention on mercury. Neither the Government 
nor the Supreme Court brought it up. I think that is because on 
both sides they thought, that is really dicey, let's not go 
there. I do not think it is at all settled that as long as the 
President has made a promise you can reinterpret domestic 
statutes accordingly.
    Senator Inhofe. Thank you, Professor, for that 
clarification. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman, and thank you 
panelists, for your testimony. We are dealing with some 
important issues.
    I just would say this. The American people are getting 
frustrated, that we have individuals executing policies that 
affect their everyday life, driving up the cost of their whole 
existence based on legal theories that are so tenuous that it 
is almost breathtaking in its thinness.
    For example, the Clean Air Act was passed with no thought 
whatsoever that we would be controlling CO<INF>2</INF>, an 
odorless, tasteless gas that is a plant food. And now we have a 
5 to 4 decision in the Supreme Court, five members of the Court 
now saying that EPA can regulate your backyard barbeque, your 
lawnmower or any other item that emits any CO<INF>2</INF>. It 
is a breathtaking thing.
    Congress has never voted for it, Congress will not vote for 
it. American people do not favor it. In a poll I saw recently 
of 18 important issues listed, global warming was 18th.
    So here we are, a group of elitists in this country, 
through the thinnest of legal arguments, imposing huge costs on 
the American economy. I am worried about it. I don't think this 
is democracy in action, and we have to be careful about how 
this all occurs.
    Mr. Rabkin, it seems to me that Congress, in resisting a 
President's overreach, could do something like Senator Cotton 
did with regard to Iran, write a letter and make sure that 
people who sign on with the United States know that is not 
binding on the United States. Is that a legitimate response?
    Mr. Rabkin. I think it is a really good idea. Because one 
of the things that we are going to be told is, oh, you are 
undermining trust in America if you don't follow through on 
what the President has promised. What you are proposing is to 
warn people, don't rely on what the President is saying, he is 
speaking for himself.
    Senator Sessions. That is exactly what is going to happen, 
colleagues, on the trade, the motion authority. If the 
President comes back with a bad treaty and somebody says, oh, 
we shouldn't adopt it, he is going to say, well, you authorized 
me to negotiate it. And now I negotiated it and you are going 
embarrass the United States before the whole world and we are 
going to be a renegade nation, et cetera.
    Mr. Rabkin. Could I just say, it is bad to disappoint 
foreigners. It is also bad to disappoint Americans and if you 
are elected by Americans maybe you should take the American 
reaction more seriously.
    Senator Sessions. Exactly. Well, as lawyers we know who we 
represent. Our duty is to our constituents who voted for us. 
Now, with regard to what the other action would be we could 
pass legislation. But as a practical matter, any legislation 
that were to be passed is subject to a Presidential veto, is 
that correct, Mr. Rabkin?
    Mr. Rabkin. Yes, what happened with Kyoto was the Senate 
passed a nonbinding resolution. So it wasn't subject to a veto. 
But that was registering how much opposition there was to the 
impending Kyoto deal. I believe that is why President Clinton 
backed off from submitting it, because of the resolution.
    Senator Sessions. Well, I believe it was 97 to nothing, 
that resolution rejecting the Kyoto requirements.
    Mr. Rabkin. Right.
    Senator Sessions. Yet now we have a President signing a new 
one that would go even further than Kyoto, and there is no 
public support or congressional support that would ratify that 
in any way.
    Mr. Rabkin. I think you have described this exactly.
    Senator Sessions. Senator Boxer talked to you about these 
treaties that we have signed. But if it is signed by the 
President and not ratified by Congress, it is not a treaty, is 
it?
    Mr. Rabkin. The word treaty is usually reserved for things 
that are ratified by the Senate.
    Senator Sessions. Now, with regard to another response the 
American people might have, what else could Congress do to 
represent their constituents if the President commits us to 
something that is not appropriate? It seems to me that the 
power of the purse remains maybe the only realistic option. Can 
Congress use the power of the purse to rein in a President who 
is spending to carry out programs that the people don't agree 
with?
    Mr. Rabkin. That is why they have the power of the purse.
    Senator Sessions. So the power of the purse is essentially, 
Congress has no duty, does it, to fund any program that it 
believes is inimical to the interest of the constituents they 
represent?
    Mr. Rabkin. Well, this is what we will be arguing about. 
The President will say, I have made a political commitment and 
you have to support me because we will be embarrassed. And the 
Congress will have to consider that.
    Senator Sessions. Well, I appreciate your testimony. This 
is a matter of real concern, and I have come to see more and 
more that the classical powers of Congress are being eroded. 
And it is not just the power of the Congress, it is the 
American people's power, their ability to control the people 
who control them. So now we are going to have somebody in some 
entity in some foreign country that is going to be directing 
us.
    Mr. Rabkin. I would just like to add one word to what you 
said, which is Constitution. We have certain background 
assumptions about how our Government is supposed to work. That 
is why we have a Constitution and what this is fundamentally 
about is saying, ah, that is old-fashioned, forget that. That 
didn't work for Clinton. We are moving forward with something 
different in which the President gets to commit us. That is a 
real change in our Constitution.
    Senator Sessions. A grave concern. Thank you, Mr. Chairman.
    [The prepared statement of Senator Sessions follows:]

                   Statement of Hon. Jeff Sessions, 
                 U.S. Senator from the State of Alabama

    Today's hearing, ``Road to Paris: Examining the President's 
International Climate Agenda and Implications for Domestic 
Environmental Policy,'' highlights a disturbing trend: we are 
dealing with an Administration that seeks to impose its will by 
any means possible, whether through unauthorized administrative 
fiat or international negotiations which usurp the Senate's 
advice and consent role provided by the Constitution. In the 
case of climate regulations, President Obama has committed the 
United States to achieving 26 percent to 28 percent reduction 
in greenhouse gas emissions by 2025, compared to a 2005 
baseline--this commitment was made through the submission of an 
``Intended Nationally Determined Contribution'' to the United 
Nations Framework Convention on Climate Change. In other words, 
despite repeated instances in which Congress has blocked 
climate change legislation, this Administration has decided to 
willfully ignore the legislative branch and unilaterally pursue 
crippling emissions reductions in an international forum, at 
great cost to the American people and to our system of 
government.
    The consequences of the President's international climate 
change agenda cannot be overstated. In his written testimony 
for today's hearing, Professor Jeremy Rabkin provides the 
following:
    ``The danger down the road is that this approach to 
committing the United States won't be seen as exceptional but 
as a general precedent for how our country coordinates its law 
with international standards in the era of global governance . 
. . We cannot go very far down that road before the idea that 
we are governed by law starts to look like a fable for school 
children. Our own elected Congress will share its legislative 
powers and responsibilities with the world at large--as the 
President (or his officials) borrow the authority of 
congressional enactments for purposes not endorsed and perhaps 
not even clearly contemplated by the enacting Congress.''
    The President's international climate agenda represents yet 
another grave threat to American sovereignty and our 
constitutional republic. I am reminded of the numerous issues 
that have been expressed regarding the President's negotiations 
with Iran, and in particular Senator Cotton's concise open 
letter to Iranian leaders reminding them of the unique 
governmental structure contained in the Constitution. In that 
letter, I joined Senator Cotton and several of my colleagues in 
observing that the next President could revoke an executive 
agreement with Iran ``with the stroke of a pen,'' and future 
Congresses could modify the terms of the agreement at any time.
    In the context of current and future climate negotiations, 
international parties should likewise be aware that the 
President is not a king, and any agreement reached by the 
President is of limited effect without congressional approval. 
Moreover, just as a future President could revoke an executive 
agreement with Iran ``with the stroke of a pen,'' so too could 
a future President withdraw from any international climate deal 
lacking congressional approval.

    Senator Inhofe. Thank you, Senator Sessions.
    Senator Merkley.
    Senator Merkley. Thank you very much, Mr. Chair. 
Interesting discussion, thank you all for your testimony.
    Does anyone here disagree that climate change is a real 
challenge that we need to be engaged in addressing?
    [No response.]
    Senator Merkley. Anyone here disagree that human activity 
and burning of fossil fuels is a contributor to the challenge?
    [No response.]
    Senator Merkley. Well, thank you. I think that is the 
foundation for this discussion. I don't want us to get lost in 
losing our perspective on the forest, if you will, while we are 
looking at the individual trees.
    I can certainly convey that in my home State of Oregon, 
climate change is very evident in a number of ways. Our fire 
season has increased by something close to 60 days over a few 
decades, far more forest being burned. We have a much bigger 
problem in the west with pine beetle, with warmer winters not 
killing the pine beetles as they have in the past.
    We have a big challenge to our shellfish industry, 
specifically our oysters, because of the acidification of the 
Pacific Ocean, which is tied to the same carbon dioxide that is 
causing climate change. We have a significant problem with loss 
of snowpack in the Cascades, which is resulting in warmer 
streams.
    My rural communities care a lot about their fishing. 
Streams are not as good when they are small and when they are 
warm as when they are cold and when they are deep. They care a 
lot about their forests and they care a lot about their 
farming. And we have a massive drought that is tied in as well.
    So in terms of the impact of this on rural America, it is 
massive. And it is manifested in farming, in fishing and 
forestry, all in my home State. So I have been struck by how 
important this conversation is as one that has direct impacts 
on the ground right now. We don't have to look at 50 years out 
or 100 years out.
    Now, it is important that this be an international 
conversation. Pollution of the air or seas is a tragedy of the 
commons, if you will. In that sense, China has committed to 
producing as much new renewable energy between now and 2030 
that is equal to all the electricity produced in the United 
States today. In fact, currently the U.S. produces about 1,000 
gigawatts of electricity, all forms, including fossil fuels. 
China has committed to produce about 1,400 gigawatts of 
renewable non-fossil fuel energy by 2030.
    So we are not talking about measures that they are 
committed to doing after 2030. We are talking about things they 
are doing between now and 2030. That is a massive deployment of 
renewable effort.
    India has been a little slower to come around. But they 
have committed to increasing their solar capacity by 100 
gigawatts by 2022, just 7 years from now, and to work toward a 
more global HFC phase-down. Brazil has announced that it has a 
goal of 20 percent of its electricity from renewable sources, 
and pledging to restore 12 million hectares of forest, about 
the size of England, by 2030. So many nations are working 
together to take this on.
    The U.S. has often been in the forefront of bringing the 
world together to take on world challenges. Certainly that is 
true of disease and taking on the pandemics of AIDS and 
tuberculosis and malaria. It certainly should be the case here.
    I do feel that this it is important to place this 
conversation into that context. The exact nature of agreements 
that occur later this year in terms of setting goals and 
pledging the U.S. to work toward those goals, you can argue as 
lawyers over the fine print. But let's not lose perspective on 
the fact that this is about a major challenge to the world that 
is having impact in our home States every single day on our 
rural resources and more to come.
    Dr. Hausker, I wanted to, you touched briefly in your 
written testimony on the interaction between climate policies 
and international businesses. Why is it that we are seeing 
companies like Starbucks, eBay, Nike, Ikea, Sprint lobbying for 
action on climate change when, according to some of my 
colleagues, climate change will do harm to the economy?
    Mr. Hausker. That is a very good question. You have pointed 
out the fact that more and more corporations, both U.S. and 
multinationals, are pressing for climate action by governments. 
They are also taking internal steps to reduce their own 
greenhouse gases.
    I might add in that context, we talked about Exxon a short 
time ago. Exxon Corporation recognizes the problem of climate 
change and they have adopted an internal price on carbon to 
guide their investments. Many other companies have done that as 
well.
    So the business community is taking this increasingly 
seriously and taking internal steps as well as advocating sound 
public policy.
    Senator Merkley. I think it goes to the heart of 
demonstrating that businesses' boards that are committed to 
profits see that climate change can be enormously harmful to 
our future economy. Thank you, my time is up. Thank you, Mr. 
Chairman.
    Senator Inhofe. Thank you, Senator Merkley. Senator 
Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman. I appreciate the 
panelists' coming in and already having a very important 
discussion.
    I always think it is important to begin these sessions by 
making it clear that we all care about clean air, clean water. 
I think sometimes my colleagues on the other side try to claim 
a little bit of the high ground, that they care more about it. 
They don't care more about it. My State probably has the 
cleanest air, cleanest water, certainly in the United States, 
maybe in the world. It is largely because of local actions, not 
the EPA, I guarantee you. Alaskans care more about the 
environment than officials here in the EPA in Washington do in 
our State.
    But we also have significant concerns about what we call in 
Alaska Federal overreach. That is usually in the form of an 
agency taking regulatory action without statutory or 
constitutional authority. Big concerns. They usually take the 
action because it is not popular in the Congress, so they can't 
get it through, so they take it anyway. At least in Alaska, the 
EPA is considered the poster child of an agency that conducts 
Federal overreach on a very regular basis.
    So legally, I think that the EPA is a rogue agency. But I 
think importantly, you don't have to take the word of members 
of the Senate or members of the public. We are seeing this more 
broadly.
    The Supreme Court, we talked about Supreme Court opinions, 
in the last two terms, in terms of the UARG v. EPA, Michigan v. 
EPA, the Supreme Court has come out and said the EPA has 
violated the law or the Constitution. It is increasingly 
conservative and liberal commentators who are starting to hold 
this view that the EPA is out of control legally.
    You may have seen Laurence Tribe, well respected liberal 
Harvard law professor who testified in front of Congress 
recently on the EPA's CO<INF>2</INF> regs, saying ``The EPA 
possesses only the authority granted by Congress, and its rule 
is attempting to exercise lawmaking power that belongs to 
Congress. Burning the Constitution should not become part of 
our national energy policy.'' That is Laurence Tribe.
    I think this should be a concern of every Member of 
Congress. And yet the EPA just kind of continues. This should 
be a concern of every member of this Committee when we have an 
agency that doesn't respect the law of the land. We were 
talking about outrage before. I am outraged. We should all be 
outraged, Democrats, Republicans, that an agency regularly 
violates the law.
    My biggest concern is they just power through and keeping 
doing it. There was a Wall Street Journal editorial yesterday, 
Mr. Chairman, that I would like to submit for the record, 
called Stopping EPA Uber Alles. Essentially what the Wall 
Street Journal was saying is that the EPA, even when it gets 
struck down by the Supreme Court, it takes 5 or 6 years to have 
that happen, they just keep powering through anyway, ignoring 
the law.
    Senator Inhofe. Without objection, that will be made a part 
of the record.
    [The referenced information follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    
    Senator Sullivan. Thank you.
    So I would just like to ask a few questions, Mr. Holmstead, 
Professor Rabkin, Mr. Bookbinder, others, do you believe, like 
the Supreme Court, like Laurence Tribe, that the EPA legally is 
a rogue agency?
    Mr. Rabkin. Laurence Tribe was one of my teachers. I never 
disagree with him, especially when he is right.
    Senator Sullivan. Thank you.
    Mr. Bookbinder. That is an incredibly loaded question, 
Senator.
    Senator Sullivan. Just a yes or no, or you can defer.
    Mr. Bookbinder. I would say, and this is from someone who 
sued EPA frequently in the past, no, I don't believe it is a 
rogue agency.
    Mr. Holmstead. I am quite confident that EPA does not let 
statutory intent get in the way of what it wants to do.
    Senator Sullivan. I would take that as a yes.
    Mr. Holmstead. We have seen that most prominently in the 
Clean Power Plan.
    Senator Sullivan. Let me ask another question. With the 
executive agreement with China, does anyone on the panel 
believe that that somehow grants authority for the EPA, and I 
am not talking about the Clean Air Act, the President executes 
an executive agreement with China, does that give the EPA even 
the smallest legal authority to start implementing domestic 
legal commitments on U.S. companies? An executive agreement. 
And I am not referring to the Clean Air Act, just that 
agreement.
    Do they have any authority to anything legally, 
domestically here in the United States based on that agreement?
    Mr. Rabkin. It is a really good question. My answer would 
be no, I am not sure what their answer is.
    Senator Sullivan. Any other panelists want to respond to 
that?
    Ms. Ladislaw. No, but I am not entirely sure it is 
necessary for the Administration to accomplish what they want 
to.
    Senator Sullivan. Thank you, Mr. Chairman, I see my time is 
up.
    Senator Inhofe. Thank you. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. I very much 
appreciate your holding this hearing, The Road to Paris. Paris, 
to me, is going to be an important moment in our global 
commitment on the problems of climate change.
    It is interesting, a good deal of the discussion here seems 
to be the role between the executive and legislative branch, 
rather than dealing with the underlying problem of how America 
needs to respond to the global climate change challenge. I 
don't see any disagreement that climate change is real, that we 
could do something to mitigate it, that there are health risks, 
that there are economic risks, there are security risks to the 
United States in regards to global climate change. If we don't 
take aggressive steps, the world depends upon U.S. leadership.
    There seems to be more fight as to whether Congress needs 
to take action or the executive action. I would hope both would 
take action.
    I serve as the senior Democrat on the Senate Foreign 
Relations Committee. I am frequently in international meetings 
when climate change comes up. And I must tell you, President 
Obama is getting good reviews internationally. The U.S. 
Congress is not.
    I think the international community would welcome the 
ability of the United States to speak with a more united voice 
and would welcome Congress taking affirmative steps by 
legislation to deal with the climate change issue. We have 
tried, Mr. Chairman, we have tried. Senator Boxer has taken a 
real leadership role. I was here with she worked with Senator 
Warner of Virginia and Senator Lieberman, and we came close. 
Senator Markey, who is not here right now, took an incredible 
leadership role on the House side in past legislation.
    The challenge is that we need to put a price on carbon. We 
have to put a price on pollution. It is unlikely that will 
happen. I think we all understand the realities of the politics 
of this Congress. But the United States has an opportunity and 
President Obama is taking advantage of that to show world 
leadership, to make a difference not only for the United States 
security and health and economy but for the global security, 
health and economy.
    So Mr. Hausker, I want to ask you a question if I might. 
What action would you think Congress could take that could be 
most helpful to achieving the goal President Obama has laid out 
for us to meet as we go into the Paris meetings?
    Mr. Hausker. I would certainly wish that Congress would be 
supportive of achieving the target that President Obama has set 
forth. It is an ambitious but achievable target. It can be done 
using existing Federal authority, supplemented by actions by 
the States.
    And in the longer term, I would hope that Congress would do 
what you pointed to, which is put a price on carbon, which 
could be done in a variety of ways. There is WRI research and 
research by other think tanks and academics pointing to the 
multiple benefits of putting a price on carbon and the ways it 
could be constructed to promote economic growth.
    So I think there is a short-term mission to advance the 
agreement that we hope will be concluded in Paris into 2025 and 
then the longer term agenda of putting the right press signals 
in place that can help this country as well as help the globe 
toward the decarbonization in the decades ahead necessary to 
solve this problem.
    Senator Cardin. Senator Whitehouse is here, who has been 
one of the real leaders on this issue on the price of carbon 
and dealing with energizing the private sector to develop ways 
in which we can meet our economic challenges, recognizing there 
is a price of carbon. We can show it directly in regards to 
what it does to our environment, what it does to our health. 
There is clearly a price.
    By recognizing that, the private sector then comes up with 
ways in which we can reduce our carbon and help our economy and 
do it in the most cost effective way. That is what many of us 
have been trying to do. We thought that it is a sensible bridge 
between the Democrats and Republicans to energize the private 
sector.
    What I really think the tragedy is here is that we don't 
have to get into a philosophical debate here. It seems to me 
the same solutions help our economy, help our security and help 
our environment. So all of us want to do all three. I am not 
sure why we are having this tough philosophical debate about 
recognizing the dangers of carbon emissions and having our 
vibrant economy figure out ways that we can again lead the 
world in innovation and dealing with the underlying problems.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    It was mentioned before that maybe we shouldn't forget 
about the forest, and we are looking at the trees. Well, I 
would say the purpose of this hearing is to look at the trees. 
We are looking at the road to Paris. As Senator Cardin said, we 
tend to get into philosophical discussions here on climate 
change and where we are on that. But I would like to get back 
to where the hearing is focused.
    My friend from Oregon was talking about rural America and 
the effects that climate change has on rural America. Well, I 
am a cattle rancher. I live in a county in Nebraska with less 
than one person per square mile. So I think I can speak about 
rural America. I think I can focus on maybe some of the effects 
that the road to Paris will have on rural America and have on 
agriculture.
    I happen to know where my friend from South Dakota lives. 
He lives 2 hours north of me in Pierre, South Dakota. He can 
speak to rural America as well. Basically, we live in the 
middle of nowhere or the center of the cosmos, one or the 
other.
    Mr. Holmstead, you had spoken earlier about the regulations 
that are out there, the known regulations, the issue that we 
would have with those and the effects that they would have on 
families and businesses. And you had kind of gotten started 
into where the unknown regulations would come from that you 
believe would need to be imposed on families in order to meet 
those targets of 26 to 28 percent in reductions.
    You mentioned the agriculture sector. That is the economic 
engine of Nebraska. It is an economic engine for this country. 
This road to Paris would have an effect on families, on the 
economy and they are unknown. They are unknown regulations.
    Can you let us know what you think some of those 
regulations would be and the impacts that they would have?
    Mr. Holmstead. My point, as you know, was that the sector 
that, according to EPA, emits greenhouse gases that are not 
really regulated is agriculture. I am probably not the right 
person to predict exactly what those would be. But what I would 
say is, if you look at the things that the environmental 
community is calling for in terms of tighter controls on animal 
manure, in terms of changes in the way that we plant crops, in 
terms of changes in the way we do grazing and all these sorts 
of things, changes in the way that fertilizer is used, these 
are the things you can imagine.
    Again, my point is, if they really are serious about 
meeting their commitment, they almost have to do those things. 
So it is either they are not serious about meeting their 
commitment or we can anticipate perhaps a greater regulatory 
burden on rural America.
    Senator Fischer. Mr. Bookbinder, you stated in your 
testimony that the reduction target submitted by the President 
would also be attributed to unknown regulatory measures. Those 
are going to add costs to families and businesses. Do you have 
any idea what some of those unknowns would be, what the 
Administration needs to be looking at in order to meet those 
requirements that they have set out for the American people?
    Mr. Bookbinder. Senator, let me make sure I understand your 
question. You are asking, am I aware of what the regulatory 
measures the Administration is contemplating to make up what I 
call the gap, I have no idea what the Administration is 
contemplating. None.
    Senator Fischer. Do you have suggestions or any ideas on 
where the Administration might be looking?
    Mr. Bookbinder. No client has come to me to ask me to try 
and figure out where those missing tons have come from. If they 
did, I would be delighted to think about it. But my job so far 
was to say, hey, there is just a missing bunch of tons here.
    Senator Fischer. I guess I am not going to pay you then, to 
give me an answer. Is that correct?
    Mr. Bookbinder. I certainly don't want to add to the 
deficit.
    [Laughter.]
    Senator Fischer. Thank you.
    Mr. Holmstead, do you think that existing U.S. law, 
particularly the Clean Air Act, authorizes the President to 
achieve the carbon reductions that are promised in this 
international carbon commitment?
    Mr. Holmstead. No, I don't see how the Clean Air Act can be 
used to get the reductions that they have promised. Again, if I 
can just point out, the Clean Air Act hasn't changed really 
since 1990. So if the Clinton administration believed that it 
could have achieved these reductions under the Clean Air Act, 
you would think it would have done something.
    So what we are seeing is an incredibly creative use of the 
Clean Air Act in ways that I think the courts are almost 
certainly going to strike down.
    Senator Fischer. So more lawsuits in the future. Thank you.
    Senator Inhofe. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    This is a very important hearing. It kind of calls into 
question the can-do capacity of the United States in order to 
meet big challenges. Can we do it? We know the threat is there. 
Do we have the capacity to do it?
    Well, back in 2005, the annual U.S. carbon pollution was 
the second highest level ever, just slightly lower than the 
peak of 2007. Back then in 2005, fuel economy standards for the 
United States were 27.5 miles per gallon.
    We passed a new law. The President implemented the law. For 
model year 2016, the average is going to be 34 miles per 
gallon. No one had that on the books in 2007. But we passed a 
law. And that is dramatically reducing emissions, and it is 
going up to 54.5 miles per gallon by the year 2025. We can do 
it.
    Same thing is true for the price of natural gas. It was 
$7.33 per 1,000 cubic feet in 2005. And that price has 
plummeted. No one had that on the books that through new 
fracking technology we would see such a dramatic reduction in 
natural gas prices that would substitute natural gas for coal, 
reducing right there by 50 percent the amount of emissions that 
were coming out.
    No one had that on the books. Technology and innovation 
made the difference.
    In 2005, we connected a mere 79 megawatts of solar for the 
whole year and about 2,400 megawatts of wind. That is 2005. In 
2014, we added 7,000 megawatts of solar up from 79 megawatts in 
2005. We expect to add 11,000 megawatts of wind just this year. 
That is not on the books in 2005.
    This is innovation. This is America saying, there is a 
problem, we are going to solve it.
    So if we can make those kinds of changes, then the sky is 
the limit if we have a sense of American can-do.
    In New England, New York, Delaware, Maryland, we 
implemented a Regional Greenhouse Gas Initiative. From 2007 
until today, we have reduced our greenhouse gases across those 
nine States by 40 percent. In Massachusetts, we saw an increase 
in our gross domestic product by 29 percent at the same time.
    We can do it. We can do it. We have to believe in 
innovation.
    So let me come to you, Dr. Hausker. From your perspective, 
what do these changes in the last 8, 9, 10 years mean in terms 
of what is possible in the future, from your perspective?
    Mr. Hausker. Senator Markey, I think you offered some great 
examples of the power of innovation, the power of ingenuity and 
the way American business can rise to challenges and produce 
not only jobs and economic growth, but fewer greenhouse gas 
emissions.
    The kind of things driving some of the changes that you 
cited is we are in the middle of a clean energy revolution. 
Over the last 5 years, we have seen the cost of wind power 
decrease by 58 percent. We have seen the cost of solar PV 
decrease by 78 percent. That is innovation, that is achieving 
economies of scale and those trends can continue also with 
supportive public policies and can lead to the kind of 
decarbonization of the economy as we continue to grow and 
provide jobs.
    We have seen that across vehicles, power generation, HFC 
reduction technologies, across the board we are seeing the 
innovation that can deliver on the kinds of reduction targets 
the Obama administration is set.
    Senator Markey. But again, we have to drive the innovation. 
When the Wright brothers were taking that first flight in 1903, 
at Kitty Hawk, even they would not have envisioned the role an 
airplane would play in World War I, just 14 years later. They 
could never have imagined. But because of the commitment of 
innovation, because of the American can-do, it revolutionized 
the rest of the world.
    Dr. Hausker, your analysis found that the United States 
could meet the President's proposed targets with existing 
authority. Mr. Bookbinder's testimony finds an emissions gap. 
Can you tell us why your arithmetic adds up?
    Mr. Hausker. Yes, thank you. Here is how, I have reviewed 
Mr. Bookbinder's analysis, and here is how I can explain why he 
has one set of conclusions and the WRI analysis has a different 
set of conclusions.
    I think I understand what you did, Mr. Bookbinder. You have 
looked at rules that have been finalized or rules that are in 
near-finalized state across some different end uses and sectors 
and added up their emissions reductions as projected for 2025 
and compared that to the target.
    What is final or near final doesn't add up yet. The WRI 
analysis, which I would be happy to put into the record, looks 
beyond what is just finalized and near-finalized. We look at 
the potential across the economy for the use of existing 
Federal authority to reduce emissions.
    So that looks beyond some of the categories you looked at. 
We also looked at industry, at aviation, at some reductions in 
the trace greenhouse gases like PFC and SF6. We also looked at 
deeper gains from energy efficiency, deeper gains from the 
reductions.
    Senator Markey. Mr. Hausker, I hear you are being gaveled. 
I thank you. I agree with you. I would just say this, Wright 
brothers, Elon Musk, that kind of innovation if we keep the 
rules in place. We will solve this problem. We just have to 
believe in ourselves.
    Senator Inhofe. Thank you, Senator Markey. Senator Capito.
    Senator Capito. Thank you, Mr. Chairman. I would like to 
thank the panelists, too. This is a very interesting 
discussion. I don't know if the panelists know, I come from 
West Virginia, which is heavily impacted by the Clean Power 
Plan. We have had heavy impacts to this point with the MATS 
ruling.
    I would like to stick on the legal parameters to begin 
with, at an agreement that could be reached in Paris. My 
colleague from Massachusetts was touting the fact of more 
efficiencies in cars. One of the quotes he used was, we passed 
a law, we, being Congress, passed a law and forced that. So I 
think that is the crux of the argument, for me, especially 
after the decision of the Supreme Court last week.
    So Mr. Holmstead, the Administration is relying on the 
Clean Power Plan to deliver a substantial share of 26 to 28 
percent reduction. But we know that the Clean Power Plan is 
going to be on shaky legal ground. We don't know when this is 
going to be settled. It could be overturned in whole or in part 
just as the Supreme Court rejected EPA's Mercury Rule last 
week, by not considering economic impact. We keep trying to get 
the EPA to come to West Virginia to look at the economic 
impacts of their regulations, and we have yet to achieve that.
    So what are the domestic legal implications of a Paris 
agreement that commits the U.S. to a level of emission 
requirements that the courts could later then determine were 
faulty EPA interpretations of the Clean Air Act? How would you 
see that?
    Mr. Holmstead. I don't understand how the President's 
pledge can change domestic law. And Professor Rabkin may know 
more than I do about these issues, but I thought a lot about 
what would happen, what kind of a lawsuit would somebody bring. 
I think the answer is that there is nothing like that.
    That is why, again, I think it is a problem to have the 
President, no matter what you think about climate change, why 
should the President be out making commitments on behalf of the 
country that he has no way of meeting? That is my real problem.
    So I don't see how he can change domestic law by making 
that kind of a unilateral agreement.
    Senator Capito. Would you agree, Professor Rabkin? You have 
pretty much addressed this issue.
    Mr. Rabkin. So there is this canon of construction that you 
should avoid interpreting a statute in a way that puts it in 
conflict with international law. If there were a treaty that 
had been ratified by the Senate, I think it would be a 
plausible argument which might move some justices or some 
judges on an appellate panel to say, let's avoid the conflict 
with a treaty.
    I think it is really a big stretch to say, let's avoid a 
conflict with a President's political commitment because he 
promised. That is really allowing the President to rewrite 
statutes, just because he has foreign friends. I don't think 
that can work.
    Senator Capito. Mr. Bookbinder, let me ask you a question. 
The system of pledging review that Paris is based on seems to 
confer, gives a lot of flexibility on developing nations, but 
more hard commitments by industrial nations like the United 
States, both in terms of emission reductions and possible 
financial obligations.
    I have already spoken about my State and what we see in 
terms of what kinds of impacts this could have, the Clean Power 
Plan and further agreements could have on a State such as ours. 
We are so heavily reliant on coal. We have a lot of it as a 
resource, we have a lot of natural gas. We are happy about 
that.
    Are there any safeguards that are being considered to 
protect American industries, consumers, workers? We already 
know the cost of our power is going to go up and the cost of 
energy is going to go up. What kinds of parameters in an 
agreement are to be considered as you look at us as an 
industrialized nation in contract to the developing nations?
    Mr. Bookbinder. Senator, you are going to hear words from 
me that you rarely hear in Washington, which is, I don't know. 
I know almost nothing about the Paris process. I will defer to 
people who do.
    I simply looked at the U.S. commitment and added up the 
numbers. I think Dr. Hausker and I have a slight difference. He 
said I looked at measures. I looked at every one of the 
measures that Secretary of State Kerry put in the INDC. So I 
simply took the measures that the Secretary of State put in the 
INDC and added them up. If there are others, then there are 
others. He didn't put them in the INDC.
    Senator Capito. Mr. Holmstead, do you have any reaction to 
that? Or is that something, in terms of developing nations 
commitments and industrialized nations, are we looking at what 
kind of advantage or disadvantage that would play and how it 
might impact us?
    Mr. Holmstead. I don't think there is any explicit 
consideration of that in Paris.
    Senator Capito. It sounds like a Supreme Court decision to 
me.
    [Laughter.]
    Senator Capito. Thank you.
    Senator Inhofe. Senator Whitehouse.
    Senator Whitehouse. Thank you very much, Mr. Chairman.
    First of all, let me thank Mr. Hausker for bringing up the 
value of the price on carbons, since I have a bill to exactly 
that effect, that appears to comport with at least the general 
principles that most of the Republican study groups that have 
looked at this issue require, i.e., that the money go back to 
the American people and not be used to fund any growth in 
Government.
    Let me just sort to set a baseline for the hearing ask each 
witness to answer the following question. That is, if you 
believe that climate change, man-made, through carbon 
emissions, is a serious problem that merits the sincere 
attention of Congress. Mr. Hausker.
    Mr. Hausker. I completely agree with that statement.
    Senator Whitehouse. Ms. Ladislaw.
    Ms. Ladislaw. I agree.
    Senator Whitehouse. Mr. Holmstead.
    Mr. Holmstead. I agree.
    Senator Whitehouse. Mr. Bookbinder.
    Mr. Bookbinder. I agree, and I want to add one thing.
    Senator Whitehouse. Let me finish what I have asked first. 
Mr. Rabkin.
    Mr. Rabkin. Sure.
    Senator Whitehouse. I could hear through the hearing, and I 
have heard a lot of my colleagues talk about their concern that 
the gap would be an opening to regulate agriculture in 
different ways. I would simply urge my Republican colleagues 
who are concerned about that to talk to big American 
corporations like Cargill, which are heavily, heavily invested 
in agriculture. Big American companies like Mars that depend on 
agriculture for their product lines.
    I think you will find that they are urging the agricultural 
sector to move in this direction on their own. This isn't some 
plan that just got hatched in the White House. Because they 
understand that climate change is real. We on a bipartisan 
basis have done things like approve funding for biodigesters in 
the Agriculture Bill to help reduce the methane. That is a 
pretty simple way of addressing the manure from ginormous feed 
lots that put out tons and tons of manure.
    So it is not as if there are not ways that we can address 
this in a bipartisan fashion. There are ways we already are 
beginning to address this in a bipartisan fashion and ways in 
which the corporate community, particular big American 
corporations, are leading us on this.
    I hope that we can address the question of regulatory 
burden in this Committee, but I don't think that we can address 
the question of regulatory burden in the context of a Committee 
that refuses to acknowledge that climate change is real. I am 
glad that all the witnesses get it. I doubt if we polled the 
Republican side of this Committee you get the same answers.
    It is unfortunate, because I think it is hard to address a 
problem that people are busy denying is a real problem. I 
particularly note what I consider to be the baleful effect of 
the Citizens United decision. We actually had a lot of good, 
bipartisan work going on climate change until the Citizens 
United decision came along.
    In this Committee, John Warner was the Republican co-author 
of Warner-Lieberman. Senator Cantwell and Senator Collins got 
together to do a very significant cap and dividend bill back in 
the cap and trade era. Senators like Senator Flake have written 
articles saying that a carbon tax would be the way to go as 
long as, again, back to the original requirement, it is revenue 
neutral, the money goes back to the American people.
    Senator Kirk, back in the day, voted for the Waxman-Markey 
bill. Senator McCain campaigned vigorously for President as the 
Republican nominee on doing something about climate change.
    So there is a steady, steady heartbeat of Republican 
activity until Citizens United happened in January 2010. After 
that, it has been like the EKG flat-lined. I think there is a 
direct correlation between the fossil fuel industry taking 
advantage of the bullying and manipulating power that Citizens 
United gave it to perform exactly those tasks and trying to 
bring the Republican party in Congress to heel. Unfortunately, 
I think they succeeded in doing so.
    Fortunately, the American people have a very different 
point of view. There is going to be a big accountability moment 
in November 2016, when the Republican party has to take what is 
presently its theory about carbon change, which is either it is 
not real or people don't have anything to do with it or I don't 
want to talk about it and vet that before the American voters. 
I don't think that is going to be a very healthy moment for 
that particular set of political theories.
    So I hope we can continue to work together on this. But I 
do think that Citizens United has had a really, really 
unfortunate effect on this conversation. My time is over, so I 
will yield.
    Senator Inhofe. Thank you. Senator Boozman, thank you for 
your patience.
    Senator Boozman. Not much choice on who to recognize.
    Senator Inhofe. That is right.
    [Laughter.]
    Senator Boozman. Thank you very much, and thank all of you 
for being here.
    As Senator Markey said, we can and should be very proud of 
the innovations we have made and the ability of America's can-
do spirit. The other side of that, though, is that we are a 
Nation of laws. We have checks and balances in place. There is 
a proper way to do things. So I guess the real question is, 
does the President have the authority to go overseas and strike 
an agreement that is very, very far reaching.
    In listening to the panel today, and you have done an 
excellent job, really representing both sides, but anybody who 
has listened today, anybody who has read the literature, there 
is profound disagreement as to whether or not this 26 to 28 
percent can be reached and what it would take to do that.
    Mr. Holmstead, in the course of studying, being a part of 
the Clean Air Act for many, many years, how long under the 
current scenario that we are doing, how long would it actually 
take to get to a goal like that?
    Mr. Holmstead. The single biggest thing that the 
Administration has promised to do is something called the Clean 
Power Plan. And their assertion is that that can achieve a 
significant reduction. It is maybe half of what the President 
would need to get to 26 percent.
    I have been dealing with the Clean Air Act for 25 years. I 
just don't think the courts are going to uphold that. It is so 
far beyond what the statute says. So if you take that away, you 
are looking at things that could improve the efficiency of a 
lot of different things, cars we already have, we could do 
other things. But I don't see how you get to 26 to 28 percent. 
And I can tell you we can't get there by 2025.
    Senator Boozman. But even with that, if the courts did 
uphold it, you still have a huge problem in doing something 
different even getting to the 26 to 28 percent.
    Mr. Holmstead. Yes.
    Senator Boozman. That would take decades.
    Mr. Holmstead. I want to point out there, is not such a 
disagreement between Mr. Bookbinder and Mr. Hausker. They both 
have said that what the Administration has announced is not 
enough to get you there. Mr. Hausker believes there are many 
other things that they and States can do.
    Senator Boozman. Exactly.
    Mr. Holmstead. But the EPA doesn't have that authority, in 
my view.
    Senator Boozman. So in the case of the international 
climate agreement proposed by the President, does anyone 
disagree that it won't drive up the cost of food, fuel and 
electricity for American families and have an impact on 
domestic policies ranging from agriculture to energy to 
transportation if we were able to do this 26 to 28 percent 
reduction?
    Mr. Hausker. The analysis that we have performed and the 
analysis of other groups that we have reviewed indicate that 
the U.S. can maintain economic growth, that it can maintain job 
creation.
    Senator Boozman. I don't mean to interrupt, but you don't 
disagree that it is going to drive up the cost of food, fuel, 
electricity for American families and have a significant impact 
on domestic policies to achieve the 26 to 28 percent?
    Mr. Hausker. I can't make any broad, sweeping statements. 
The impacts are going to vary by sector. If we look at 
electricity, for instance, and we look at the impacts, the 
projected impacts of the Clean Power Plan, we find that 
although the price of electricity may go up, the efficiency 
programs that would accompany it would actually decrease demand 
and that average residential bills would be constant or could 
actually decline.
    So things interplay in different ways.
    Senator Boozman. But you would acknowledge this is a big 
deal? To reach a 26 to 28 percent reduction, you are going to 
have far reaching things.
    Mr. Hausker. We call it ambitious. It requires a lot of 
action. It requires a lot of operation.
    Senator Boozman. And the question is, does the President 
have the unilateral authority to do that? And that is really 
kind of where we are.
    Yes, ma'am.
    Ms. Ladislaw. I just wanted to say, it is kind of a strange 
conversation we are having about what authority the President 
needs to make that kind of a commitment, whether it is a 
domestic or an international authority. I think that it is 
important to keep in mind that the Administration has said if 
they come back with an agreement that they believe legally 
requires State pass through Congress, they will take it that 
route.
    So the idea here that we know what the agreement looks like 
and therefore can justify what kind of authority it requires, 
we won't really know until we get the outcome from Paris. There 
is some speculation about those things, but we don't really 
know the answer to that question.
    Mr. Bookbinder. I would like to take a shot at answering 
that question. The Congress, your predecessors have created 
this system. Congress wrote a Clean Air Act that says EPA shall 
regulate a pollutant that is anticipated to endanger human 
health and welfare. EPA has determined, quite reasonably, that 
carbon dioxide and other greenhouse gases do endanger human 
health and welfare. At which point the Clean Air Act, as 
written by your predecessors, says EPA must regulate.
    Now, the point I am making is that as a result of that, 
Congress has already put a price on carbon. The regulatory 
costs, which are mandated by the Clean Air Act, are a price on 
carbon. What some in the White House and other people who 
propose a carbon tax is a more economically efficient price. So 
you are either going to be stuck with an inefficient or 
regulatory price or an efficient carbon tax price. Those are 
your choices.
    Senator Boozman. Thank you, Mr. Chairman. The only thing I 
would say is if you can't sell it to the Congress, if you can't 
sell it to the American public, then again, it probably 
shouldn't be done in this manner. Thank you very much.
    Senator Inhofe. Thank you, Senator Boozman. That is a very 
good point.
    I am going to do something, and it is within the power of 
the chair to do it. Senator Boxer wants a full 5 minutes to 
respond to everything. While she was the chairman, I never made 
that request.
    [Laughter.]
    Senator Inhofe. However, I am going to allow her to do 
that, and no one else coming in, they have now had their chance 
to come down. So we are through hearing from other members.
    We will acknowledge Senator Boxer for 5 minutes, then I 
will acknowledge myself for perhaps an equal amount of time. 
Then it is over, you guys.
    [Laughter.]
    Senator Boxer. Senator, thank you.
    I am not going to ask any questions. I am just going to 
thank the panel. All of you were terrific. Mr. Bookbinder, you 
spoke for me in your last comments. You are so right, there is 
a price on carbon. It is not the most efficient way. If we 
could come together around a carbon tax. I also think the 
international oil companies would come into that place, we 
would be far better served.
    What I want to do in these couple of minutes is just give 
kind of a closing argument about why I think the President has 
this authority. I agree with Senator Boozman. We are a Nation 
of laws. So I will take you back to 1992, October 7th, when the 
Senate, by unanimous consent, passed the U.N. Framework 
Convention on Climate, under which this President and the next 
one has the authority to move forward with executive agreements 
as long as they don't violate our laws, such as the Clean Air 
Act and our fuel economy and all that. That is his intention.
    I also wanted to speak to Senator Fischer's point, the 
point that she made as a rancher. You probably know I am not a 
rancher, I am not a farmer, I was born in Brooklyn, New York. 
There used to be farms in Brooklyn, but not when I was born. I 
am not that old.
    I represent a State, along with Senator Feinstein, that has 
the largest ag production in terms of revenue. We are No. 1. If 
we move toward an agreement and toward doing what we have to do 
with very catastrophic climate change, we will save, in our 
Nation, $11 billion a year out through 2050, in avoiding these 
damages to the climate which is going to adversely impact 
agriculture.
    So it is because I represent this State that I fervently 
believe California is on track and the President is on track. 
Frankly, the Congress is off track.
    Then I think it is very important, Senator Sullivan 
mentioned Larry Tribe. I love Larry Tribe. But I think he sold 
out in this particular case. It is OK. He took a lot of money 
from Peabody Coal and he is presenting their arguments. He has 
lost so far. Let's be clear. The courts have ruled against him 
so far. I am sure he is doing a great job but that is where it 
is at this point.
    I wanted to say to Mr. Holmstead, thank you for your 
Government service. You were there at EPA for a period of time. 
When you were asked if you felt the EPA was a rogue agency, you 
gave kind of an answer that I sensed was leaning yes at this 
point.
    When I look back at your service and your time there, your 
refusal and the refusal of the Bush administration to admit 
that climate was covered in the Clean Air Act led us to 
Massachusetts v. EPA, in which your side lost and my side won. 
Now, the point there is, maybe EPA was a rogue agency at that 
time when you were there. Because clearly when you read the 
case, honest to God, it says, any pollutant that adversely 
impacts the climate.
    I am not a lawyer. I am married to one, my father was one, 
my son is one. So maybe by osmosis I am one. But all you have 
to do is read the Clean Air Act. The Bush administration wasted 
8 precious long years. It is really worth noting.
    Now, Senator Sessions makes a really good point. He says, 
shouldn't we use the power of the purse. And the people here 
who agree with Senator Sessions, that this is the wrong way to 
go, say yes, use the power of the purse. And he made the point, 
we shouldn't have to go against our constituents.
    Let me show you the recent poll, in January 2015. Eighty-
three percent of Americans, including 61 percent of 
Republicans, say if nothing is done to reduce emissions, global 
warming will be a serious problem in the future. Seventy some 
percent of Americans say the Federal Government should be doing 
a substantial amount to combat climate change. That is a 
Stanford poll. There is also a Wall Street Journal poll that 
has similar findings.
    So I am saying to my friends on the other side, you are on 
the wrong side of the people and you are on the wrong side of 
history because of the way this thing is going.
    Finally, I will close with a comment that was made by 
Christie Todd Whitman, former EPA Administrator under George W. 
Bush. She appeared here on June 18th, 2014: ``I have to begin 
by expressing my frustration with the discussion about whether 
or not the EPA has the legal authority to regulate carbon 
emissions that is still taking place in some quarters. The 
issue has been settled.'' She is right. Thank you.
    Senator Inhofe. Thank you, Senator Boxer.
    First of all, this hearing today is not a science hearing. 
The questions that were asked of you, I am sure it was 
difficult to answer them. You didn't come here with that 
perspective. You came here for the what are we going to do 
about Paris and what about this 21st meeting that is coming up, 
what power does the President have to do these things that he 
seems to think he can do without any ratification by Congress.
    I would suggest, I want to clarify a couple of things. 
Senator Boxer used the statement that 56 percent of the people 
in Congress would adopt something that would be any type of cap 
and trade or a similar kind of restriction. That is not exactly 
true, because that was on a majority, a vote on a motion to 
proceed. I have many times, and every Senator up here has many 
times voted to proceed to something to hear it without 
supporting it.
    The specific votes, the highest one it ever got was 48 
percent. And that was the Warner-Lieberman vote, and then 38 
percent and 43 percent.
    Now, no useful purpose would be used, because I hear the 
same things over and over again. I have stood on the floor. I 
was down there during the time that right after Tom Steyer put 
in his $75 million to elect people that wanted to revive the 
old global warming argument. I went down there and listened and 
I heard the same things that have been rebuked many times 
before. They keep coming up.
    We heard it from three of the members over here today. They 
talked about, oh, the weather consequences, the serious 
consequences, droughts, and in fact that the severe drought, 
that 34 percent covered 80 percent of the country compared to 
25 percent in 2011. We have all these statements that were 
made.
    In fact, Professor Rabkin, your university, George Mason, 
did a study of all the meteorologists, not all of them, but a 
sampling of meteorologists. They reported that 63 percent of 
the weather forecasters, those are meteorologists on TV, 
believe that any global warming that occurs is a result of 
natural variation and not human activities.
    Here is a good one here. Dr. Martin Hertzberg, he is one I 
knew personally, a very proud liberal Democrat, retired naval 
meteorologist with a Ph.D. in physical chemistry, also declared 
his dissent of warming fears. He said ``As a scientists and a 
lifelong liberal Democrat, I find the constant regurgitation of 
the anecdotal fear-mongering claptrap about human-caused global 
warming to be a disservice to science.'' Continuing, he said 
``The global warming alarmists don't even bother with data. All 
they have are half-baked computer models.'' He goes on and on.
    Then there is Richard Lindzen. I remember him very well, 
because he testified here before this Committee. He said that 
regulating carbon is a bureaucrat's dream. If you regulate 
carbon, you regulate life. I am sure some of you remember that.
    He is one who has been with MIT. Same thing with sea level 
and some of the other arguments.
    But I do want to mention this. The most recent poll that 
Gallup came out with, they sent a list, and these are the 25--I 
will make this a part of the record--national concerns of 
Americans. Dead last on that list is climate change.
    I know people want to believe it, people want to believe 
the world is coming to an end. Quite frankly, confession is 
good for the soul. I recall when I first was exposed to this, 
and everyone said it was true, so I assumed it was until they 
came out, it was MIT and some other groups, came out and said 
how much it would cost if we were to pass the cap and trade 
type of legislation that came originally from McCain and 
Lieberman. The range has been between $300 billion and $400 
billion a year. That has not really changed.
    So I did the math in the State of Oklahoma. Each family in 
my State of Oklahoma that files a Federal tax return would end 
up paying about $3,000 a year.
    By the admission of President Obama's first director, Lisa 
Jackson, of the EPA, when asked the question when she was 
sitting at the table right where you are sitting today, if we 
were to pass some type of a cap and trade legislation, either 
by legislation or regulation, would this have the effect of 
lowering CO<INF>2</INF> emissions nationwide, she said, no, it 
wouldn't. The reason was because this isn't where the problem 
is. It is in China and India and other places.
    By the way, I know all this talk about what China is going 
to do, they haven't committed to anything. The President came 
back and he talked about this great achievement that he made. 
They didn't commit to anything at all.
    Now they say, well, we are going to increase our emissions 
of CO<INF>2</INF> between now and 2025, then we are going to 
start decreasing it. That is a deal? It is really not.
    So I only want to say that we have had the science hearing. 
It is a controversial subject. And I am glad that we are having 
this hearing today. I personally, as I said in my opening 
statement, went to Copenhagen and was at that time, this was 
after all the leadership, as perceived by the other 191 
countries, were all on one side. I said no, what they are 
telling you isn't true. We are not going to be passing cap and 
trade as they told you. This was 2009. And of course, that 
didn't happen.
    We will continue to look at this. We are concerned about 
any issue that comes before this Committee, and we are 
adjourned.
    [Whereupon, at 11:55 a.m., the Committee was adjourned.]
    [Additional material submitted for the record follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    
                                 <all>
</pre></body></html>
